                                      National Science Foundation
                                           4201 Wilson Boulevard
                                          Arlington, Virginia 22230


Office of Inspector General




MEMORANDUM

DATE:              March 31, 2011

TO:                Jeffery Lupis, Division Director
                   Division of Acquisition and Cooperative Support (DACS)

FROM:              Dr. Brett M. Baker /s/
                   Associate Inspector General for Audit

SUBJECT: NSF OIG Audit Report No. OIG-11-1-016, Evaluation of AUI’s Internal Control
         over Property, Procurement and Travel

We contracted with the Defense Contract Audit Agency (DCAA), Chesapeake Bay Branch
Office, to perform a comprehensive internal control review of Associated Universities, Inc.
(AUI). This is the second part of this audit 1, wherein DCAA evaluated AUI’s internal controls
over procurement and acquisition; property and equipment; and purchasing which includes credit
card purchases and travel.

Background

AUI manages astronomical observatories for NSF and is the management organization for the
National Radio Astronomy Observatory (NRAO), which is one of NSF’s Federally Funded
Research and Development Centers (FFRDC). AUI manages research facilities in Green Bank,
WV (site of the Green Bank telescope) and in Socorro, NM (site of the Very Large Array and
Expanded Very Large Array). AUI also manages the Atacama Large Millimeter Array (ALMA)
which is still under construction in Chile. NSF awarded Cooperative Agreement AST-0956545
to AUI, effective from November 15, 2009 through September 30, 2015, for the management
and operations of the NRAO. NSF projected it would award about $458 million of funds to AUI
for the management and operations of the National Radio Astronomy Observatory (NRAO) for
FYs 2010-2015. We requested an internal control audit of AUI to determine whether AUI has
systems in place to ensure compliance with federal regulations and proper stewardship over NSF
funds.

The objectives of this specific audit were to evaluate the adequacy of AUI’s policies and
procedures for procurement and acquisition; property and equipment; and purchasing which
includes credit card purchases and travel. The criteria that DCAA used in making its evaluation
included 2 CFR Part 230, Cost Principles for Non-Profit Organizations.

1
 The first part of the audit was transmitted under NSF OIG Audit Report No. OIG-10-1-013, Evaluation of the
Adequacy of Associated Universities Inc.’s Short and Long Range Planning Processes, dated September 30, 2010.
                                                                      NSF OIG Audit Report No. OIG-11-1-016



DCAA issued a separate audit report to address this objective. DCAA’s audit report is included
as an attachment to this memo. DCAA’s findings and recommendation are summarized below.

AUI’s Corporate Office Requires Written Travel Policies and Procedures

DCAA stated that AUI’s internal controls over procurement and acquisition, property and
equipment; and purchasing which includes credit card purchases are adequate. However, AUI’s
travel policies and procedures are inadequate to achieve proper internal control over corporate
office employees’ travel. DCAA stated that during FY 2010 AUI incurred $273,540 of travel
costs which were allocated to NRAO and reimbursed by NSF through its indirect cost rate. 2

During DCAA’s travel review, AUI corporate told DCAA that it “generally follows” NRAO
policies and procedures for travel. However, DCAA found instances where AUI corporate did
not follow NRAO’s travel policies and procedures, including not submitting travel authorizations
prior to travel, and board trustees being reimbursed for actual expenses incurred rather than per
diem amounts. DCAA stated that, while travel cost principles for non-profit organizations
provide for reimbursement of travel expenses on an actual cost basis, certain conditions must be
met for the costs to be allowable which are specified in the federal cost principles. 3 DCAA
recommended that AUI corporate office establish written travel policies and procedures in
accordance with administrative requirements and travel cost principles that provide detailed
accounting and travel policies and procedures.

AUI agreed to establish AUI Corporate Office policies and procedures that will provide detailed
accounting and travel policies and procedures.

Recommendation

We recommend that the NSF Director of the Division of Acquisition and Cooperative Support
address and resolve DCAA’s recommendation that AUI Corporate Office establish written
policies and procedures that are in accordance with both the administrative requirements and
travel cost principles (Appendix B, Paragraph 51) included in 2 CFR 230, Cost Principles for
Non-Profit Organizations, and detail the process the traveler undertakes prior to traveling
through reimbursement of expenses incurred while on official travel.

As part of its audit resolution process, NSF is responsible for reviewing AUI’s revised policies
and ensuring that they are adequate and properly implemented.

We are providing a copy of this memorandum to the AUI Program Director. The responsibility
for audit resolution rests with DACS. Accordingly, we ask that no action be taken concerning
the report’s findings without first consulting DACS at (703) 292-8242.



2
    DCAA did not evaluate the allowability of costs yet, because this review was not an incurred cost audit.
3
    Reference 2 CFR Part 230, Appendix B, Paragraph 51, Travel Costs.




                                                            2
                                                        NSF OIG Audit Report No. OIG-11-1-016


OIG Oversight of Audit

To fulfill our responsibilities under Government Auditing Standards, the Office of Inspector
General:

      •   Reviewed DCAA’s approach and planning of the audit;
      •   Monitored the progress of the audit at key points;
      •   Coordinated periodic meetings with DCAA and OIG management to discuss audit
          progress, findings and recommendations;
      •   Reviewed the audit report prepared by DCAA to ensure compliance with Government
          Auditing Standards and Office of Management and Budget Circulars; and
      •   Coordinated issuance of the audit report.

DCAA is responsible for the attached audit report on AUI and the conclusions expressed in the
report. The NSF OIG does not express any opinion on AUI’s internal controls over procurement
and acquisition; property and equipment; and purchasing which includes credit card purchases
and travel, or the conclusions presented in DCAA’s audit report.

We thank you and your staff for the assistance extended to us during the audit. If you have any
questions about this report, please contact Jannifer Jenkins at (703) 292-4996 or David Willems
at (703) 292-4979.

Attachments:    DCAA Report No. 6171-2010J17900010 dated March 24, 2010

cc:       Martha Rubenstein, CFO and Director BFA
          Mary Santonastasso, Division Director, DIAS
          Vernon Pankonin, Program Director, MPS/AST
          Clifford Gabriel, Senior Advisor, OD




                                               3
Defense Contract Audit Agency

                      United States
                  Department of Defense

                       March 24, 2011

  Independent Audit of Associated Universities, Incorporated
       Internal Control over Property and Procurement

          AUDIT REPORT NO. 6171–2010J17900010

RESTRICTIONS:
Audit Report No. 6171-2010J17900010
Audit Report No. 6171-2010J17900010

           DEFENSE CONTRACT AUDIT AGENCY
PREPARED FOR: National Science Foundation
              Office of the Inspector General
              ATTN: Mr. David Willems
              Audit Manager
              4201 Wilson Boulevard
              Arlington, VA 22230-0002

PREPARED BY:      DCAA Chesapeake Bay Branch Office
                  10025 Governor Warfield Parkway
                  Suite 220
                  Columbia, MD 21044
                       Telephone No.
                       FAX No.
                       E-mail Address

REFERENCES:        Relevant Dates: See Page 5

CONTRACTOR:       Associated Universities, Inc.
                  1400 16th Street NW Suite 730
                  Washington, DC 20036-2252
                                                             Page
CONTENTS:          Subject of Audit                           1
                   Scope of Audit                             1
                   Results of Audit                           2
                   Contractor Organization and Systems        5
                   DCAA Personnel and Report Authorization    6
                   Audit Report Distribution                  7
                   Appendix                                   8
Audit Report No. 6171-2010J17900010


                                     SUBJECT OF AUDIT

        In response to your request dated August 13, 2009, we have examined the adequacy of
Associated Universities, Inc.’s (AUI’s) control environment including internal controls over
procurement and acquisition; property and equipment; and purchasing which includes credit card
purchases and travel to determine whether AUI’s controls are adequate to achieve planned
objectives and proper stewardship over NSF funds.

       AUI is responsible for establishing and maintaining adequate policies and procedures for
procurement and acquisition; property and equipment; and purchasing which includes credit card
purchases and travel. Our responsibility is to express an opinion on the adequacy of the policies
and procedures based on our examination.


                                       SCOPE OF AUDIT

        We conducted our examination in accordance with generally accepted government
auditing standards, except DCAA does not currently have an external opinion on its quality
control system as required by GAGAS 3.55. The most recent external quality control review
opinion expired on August 26, 2009. GAGAS require that we obtain a sufficient understanding
of internal controls to plan our examination and determine the nature, timing, and extent of tests
to be performed. An examination of internal controls includes:

       •   Obtaining an understanding of the contractor’s procurement and acquisition; property
           and equipment; and purchasing which includes credit card purchases and travel;
       •   Determining whether reliance can be placed on the work of the contractor’s IPA’s
           relating to property and equipment procurement;
       •   Performing detailed testing of procurement and acquisition; property and equipment;
           and purchasing which includes credit card purchases and travel; and
       •   Determining the need for technical assistance.

       We evaluated the adequacy of the control environment and related controls over property,
procurement, credit card purchase and travel using the applicable requirements contained in:

       •   2 CFR Part 230 – Cost Principles for Non-Profit Organizations (OMB Circular A-
           122);
       •   2 CFR Part 215 – Uniform Administrative Requirements for Grants and Agreements
           with Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations
           (OMB Circular A-110);
       •   National Science Foundation Grant Policy Manual; and
       •   Cooperative Agreement terms and conditions.
Audit Report No. 6171-2010J17900010

        We have not specifically examined AUI’s accounting system and related internal
controls. The scope of our examination reflects our assessment of control risk and includes audit
tests designed to provide a reasonable basis for our opinion.

        Because of inherent limitations in any internal control, misstatements due to error or
fraud may occur and not be detected. Also, projections of any evaluation of the internal control
over the property and procurement process to future periods are subject to the risk that the
internal control may become inadequate because of changes in conditions, or that the degree of
compliance with the policies or procedures may deteriorate.


                                     RESULTS OF AUDIT

        In our opinion, AUI’s control environment including internal controls over procurement
and acquisition; property and equipment; and purchasing which includes credit card purchases is
adequate. However, AUI’s travel policies and procedures are inadequate to achieve proper
internal control over travel due to its lack of adequate policies and procedures. In addition, its
travel policies and procedures do not provide sufficient controls to ensure compliance with 2
CFR Part 230, Appendix B, Paragraph 51 “Travel Costs” which states “…Such costs may be
charged on an actual cost basis, on a per diem or mileage basis in lieu of actual costs incurred, or
on a combination of the two, provided the method used is applied to an entire trip and not to
selected days of the trip, and results in charges consistent with those normally allowed in like
circumstances in the non-profit organization’s non-federally sponsored activities.” Our Statement
of Condition and Recommendation below provides the detail of the noted inadequacy.

        In your request for audit your office requested that we “determine if the weaknesses
identified in NSF’s TBSR (Total Business Systems Review) report have been adequately
addressed and resolved and determine and report on whether corrective actions noted in the
report have been fully implemented.” The TBSR report included a section on the conclusions of
the review which included corrective actions that related to purchasing and procurement as
follows:
             • Including some form of cost/price analysis documentation in the file of every
                 procurement action; and
             • Adjusting the fair market valuation method used for donated property.

        During our evaluation of controls over procurement, we noted that AUI does perform and
maintain documentation of cost/price analysis in its procurement files. Our evaluation of property
did not include an assessment of the valuation method used for donated property because that is a
financial accounting matter that is outside the scope of our audit.

        Our audit was limited to determining the adequacy of AUI’s overall control environment
and internal controls over property and procurement systems, as well as credit card management




                                                 2

                                 FOR OFFICIAL USE ONLY
Audit Report No. 6171-2010J17900010

and travel. We did not perform a comprehensive audit of the recipient’s internal controls.
Accordingly, we express no opinion on AUI’s system of internal control taken as a whole.

       We provided the results of our audit to
                                          , in an exit conference on March 3, 2011. The
contractor’s response is included as an appendix on Page 7.


                   STATEMENT OF CONDITION AND RECOMMENDATION

Condition: Associated Universities, Inc. (AUI) does not follow its travel policies and
procedures with respect to travel approval. In addition, the policy is vague with respect to the
necessary documentation required to support the travel; and for establishing reasonableness and
allowability in like circumstances for reimbursement on Federal awards.

AUI has an agreement with the National Science Foundation (NSF) to manage the National
Radio Astronomy Observatory (NRAO). While NRAO maintains detailed procedures for
employee travel, AUI’s corporate policy is vague and does not detail the process that is to be
followed by employees prior to travel and for reimbursement of travel expenses. The contractor
states, that it “generally follows” the NRAO policies and procedures for travel. However; it was
determined during testing that there are significant aspects of NRAO’s travel procedures that
AUI does not follow, including; not being required to submit travel authorizations prior to travel
and board trustees being reimbursed for actual expenses incurred rather than per diem or actual
expenses that do not exceed the per diem amount.

While the majority of AUI’s business is to manage NRAO, there is a need for AUI to establish an
independent set of detailed policies and procedures, including travel, to distinguish itself from its
research centers.

During FY 2010, AUI incurred $273,530 of travel costs which is allocated to NRAO and
reimbursed by NSF through its indirect cost rate.

Recommendation: We recommend that AUI establish written travel policies and procedures that
are in accordance with both the administrative requirements and travel cost principles (Appendix
B Paragraph 51) included in 2 CFR Part 230, Cost Principles for Non-Profit Organizations, and
detail the process the traveler undertakes prior to traveling through reimbursement of expenses
incurred while on official travel.

Contractor’s Reaction: The contractor concurred with our finding. It acknowledged the fact
that they do not have independent travel procedures and will “establish AUI Corporate Office
Fiscal Policies and Procedures that will provide detailed accounting and travel policies and
procedures.”




                                                 3
Audit Report No. 6171-2010J17900010


                    CONTRACTOR ORGANIZATION AND SYSTEMS

1.     Organization

        Associated Universities, Incorporated (AUI) is a not-for-profit organization that was
established in 1946 as an educational institution dedicated to research, development, and
education in the physical, biological and engineering services. AUI is the Management
organization for National Radio Astronomy Observatory (a Federally Funded Research and
Development Center) which operates and manages astronomical observatories located in Chile;
Greenbank, West Virginia; and Socorro, New Mexico. AUI, in addition to managing NRAO,
also manages the support and construction of the Atacama Large Millimeter Array (ALMA) in
Chile. AUI’s responsibilities include appointing the Observatory Director and other hiring
decisions; reviewing ongoing programs and budgets; as well as overseeing any new projects or
proposals. AUI is governed by a Board of Trustees, which performs many functions, including
electing Corporate Officers who serve the Board in carrying out the everyday business of AUI.
For the fiscal year ending September 30, 2009, AUI generated approximately $147 million in
operating revenue from NSF (National Science Foundation).

       The most recently awarded NSF cooperative agreement (AST-0956545), effective from
November 15, 2009 through September 30, 2015, is applicable for the management and
operations of the NRAO. NSF’s funding projection to AUI for FY’s 2010 – 2015 is
approximately $458 million.

2.     Accounting System

        Costs are allocated and managed under Scientific Program Orders (SPO’s). The
contractor maintains a job cost accounting system wherein contracts are assigned individual
project numbers that are used to accumulate associated direct costs. The contractor utilizes JD
Edward’s software for its accounting system. NRAO’s unallowable costs are not recorded in
NRAO’s general ledger. Instead, these costs are charged directly to AUI’s books and records to
an unallowable account code. There are four indirect rates that are utilized: AUI Indirect rate,
common cost recovery rate, fringe, and leave. Employees use an Electronic Timekeeping (ETK)
system for inputting time and processing payroll. Claims for reimbursement are submitted
weekly by authorized employees using the government directed FastLane software program.




                                               4
Audit Report No. 6171-2010J17900010


                                        DCAA PERSONNEL

                                                                     Telephone Number
Primary contacts regarding this audit:




Other contacts regarding this report:



                                                                        FAX Number
         Chesapeake Bay Branch Office

                                                                       E-mail Address
         Chesapeake Bay Branch Office

General information on audit matters is available at http://www.dcaa.mil/.


                                        RELEVANT DATES

Audit Request Date: August 13, 2009

AUDIT REPORT AUTHORIZED BY:




                                                5
Audit Report No. 6171-2010J17900010


                              AUDIT REPORT DISTRIBUTION

DISTRIBUTION
                                                             E-mail Address
Audit Manager                                        jcjenkins@nsf.gov
National Science Foundation                          dwillems@nsf.gov
ATTN: Mr. David Willems
4201 Wilson Boulevard
Arlington, VA 22230-0002

Associated Universities, Incorporated                (Copy furnished through ACO)
1400 16th Street NW Suite 730
Washington, DC 20036

Senior Financial Liaison Advisor




                                          6
Audit Report No. 6171-2010J17900010


                                                          APPENDIX




         Sui•• 730
         1400 l6~ s._~ NW
         W""hing'''''' DC 200J6
         J'h<-. 202.46].1676
         ~"": 202 .232.7]61
                                                                                       March 15,201 1


                                  AUf Management Response to n CAA Intern al Controls Audit

                                        P roperty, Procureme nt, C redit Ca rds & T ravel
                                                        Travel SOCAR

      Condi tion : AUI Corporate Omce does not have its own writtcn travel policies and procedures [n addition,
      the policy that is followed is vague with respect to the net:essary documentation required to support the travel;
      and for establishing reasonableness and allowability in like circumstances for reimbursement on Federal
      awards.

      AUI has an agreemelH witb the National Science Foundation (NSF) to manage the National Radio Astronomy
      Observatory (NRAO). While NRAO maintains detailed procedures for employee travel, AUl's separate policy
      is vague and does not detail the process that is to be followed by employees prior to travel and for
      reimbursement of travel expenses. The contractor states that although there is a standard policy under AU[, it
      "will generally follow" NRAO 's travel policies and procedures. However; it was determined during le~ling thaI
      there are significant IIspcets ofNRAO's trave l procedures that AU! doe~ not follow. including; not being
      required to submit travel autho rizations prior to travel and board trustees being reimbursed for actual expenses
      incurred rather than per diem or actulIl expenses that do not exc~d the per diem amount.

      While the majority of AUI's business is to manage NRAO, there is a need for AU l to establish an independent
      set of detailed policies and procedures, including travel, to distinguish itselffrorn its research centers.

      During FY 2010, AUI incurred $273,530 of travel costs which is allocated to NRAO and re imbursed by NS F
      through its indirect cost rate.

      Rc<:ommcnd ation: We .-ccommend that AU I establish written travel policies and procedures that are in
      accordance with the both administrative requirements (2 CF R Part :230 Appendix A) 3/ld travel cost principles
      (2 CFR Part 230 Appendix B Parllgraph 51) included in 2 CF R Part 230, Cost Principles for Non- Profit
      Organizations and detail the process the traveler undertakes prior to traveling through reimbursement of
      expenses incurred while on official travel.

      AU! Ma nagem e nt Res ponse: AUl Management acknowledges that the AU[ Corporate Office does not have
      its own independent set of detailed fiscal policies and procedures, including travel, to distinguish itsclf from its
      research centers. Am Management will establish an AUI Corporate Office Fiscal Policies and Procedures
      M3/1ual that will provide detailed account ing and travel policies and procedures. These policies and procedures
      will be in accordance with the genera! principles (Appendix A) and cost principles (Append ix 8) in 2 CFR Pan
      230 (Cosl Principles/or Non-Profil Organi;:;(J/iQns) .




                                                                   7
